<html>
<title> - METRO: REPORT CARD FOR AMERICA'S SUBWAY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                           METRO: REPORT CARD
                          FOR AMERICA'S SUBWAY

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2019

                               __________

                           Serial No. 116-66

                               __________

      Printed for the use of the Committee on Oversight and Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                        
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-303 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
                        
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

            CAROLYN B. MALONEY, New York, Acting Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California                Frank Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
              Wendy Ginsberg, Subcommittee Staff Director
                     Joshua Zucker, Assistant Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                

                 Subcommittee on Government Operations

                 Gerald E. Connolly, Virginia, Chairman
Eleanor Holmes Norton, District of   Mark Meadows, North Carolina, 
    Columbia,                            Ranking Minority Member
John P. Sarbanes, Maryland           Thomas Massie, Kentucky
Jackie Speier, California            Jody B. Hice, Georgia
Brenda L. Lawrence, Michigan         Glenn Grothman, Wisconsin
Stacey E. Plaskett, Virgin Islands   James Comer, Kentucky
Ro Khanna, California                Ralph Norman, South Carolina
Stephen F. Lynch, Massachsetts       W. Gregory Steube, Florida
Jamie Raskin, Maryland
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on October 22, 2019.................................     1

                               Witnesses

Mr. Paul Wiedefeld, General Manager and Chief Executive Officer, 
  Washington Metropolitan Area Transit Authority
Oral Statement...................................................     7
Mr. Paul Smedberg, Chair, Board of Directors, Washington 
  Metropolitan Area Transit Authority
Oral Statement...................................................     8
Mr. Geoffrey Cherrington, Inspector General, Washington 
  Metropolitan Area Transit Authority
Oral Statement...................................................    10
Dr. David L Mayer, Chief Executive Officer, Washington Metrorail 
  Safety Commission
Oral Statement...................................................    11

Written opening statement and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: https://docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are listed below/available at: 
  https://docs.house.gov.

  * Unanimous Consent: Prepared Opening Statement of Majority 
  Leader Steny Hoyer.

  * Unanimous Consent: Prepared Opening Statement of Rep. Glenn 
  Grothman.

  * Unanimous Consent: Prepared Opening Statement of Mr. 
  Cherrington.

  * ``Metro's Pensions are not the problem'', Washington Post, 
  September 22, 2018; submitted by Chairman Connolly.


 
                           METRO: REPORT CARD
                          FOR AMERICA'S SUBWAY

                              ----------                              


                       Tuesday, October 22, 2019

                   House of Representatives
      Subcommittee on Government Operations
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:09 p.m., in 
room 2154, Rayburn Office Building, Hon. Gerald E. Connolly 
(chairman of the subcommittee) presiding.
    Present: Representatives Connolly, Norton, Sarbanes, 
Raskin, Massie, Grothman, Comer, and Steube.
    Also present: Representatives Hoyer, Wexton, and Trone.
    Mr. Connolly. The subcommittee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    The subcommittee is assessing the operations and management 
of the Washington Metropolitan Area Transit Authority Metrorail 
system. And before I recognize myself and the ranking for an 
opening statement, we are graced to have the majority leader of 
the House of Representatives with us, and I want to defer to 
him for his opening remarks should he choose.
    Mr. Hoyer. You are very kind, Mr. Chairman. Thank you very 
much. As you know, I have been working on the Metropolitan 
Transit system, and when I first ran for office in 1966, which 
is about when we started, Carlton Sickles was a candidate for 
Governor. I ran on his ticket. He was one of the fathers, one 
of the parents of the Metropolitan Transit System. Then when I 
came to Congress, I worked very closely with Frank Wolf to 
ensure that the system was completed. And I am pleased to be 
here. Thank you very much for your courtesy, Mr. Chairman.
    All of us continue to be deeply saddened, of course, by the 
loss of our colleague and friend, and a great American, and a 
great member of this body, Elijah Cummings. We worked closely 
together on so many things. I know that this committee mourns 
his loss deeply.
    I appreciate the opportunity to join the members of this 
subcommittee today to ensure that Congress is conducting its 
proper oversight of the Metro system, which serves our Nation's 
capital and the greater Washington region, part of which I 
obviously represent. I am proud to represent many of its 
suburban communities in Maryland, the district home to 62,000 
Federal employees, many of whom rely on Metro to commute to 
their place of employment every day. Approximately one-third of 
Metro's riders, of course, during peak hours are Federal 
workers, and the majority of Metrorail stations serve Federal 
facilities, making the system a critical lifeline for our 
Nation's government workers.
    So many of our predecessors with whom I have worked, in 
particular, Mr. Lehman from Florida who chairs the 
Appropriations Subcommittee on Transportation, viewed our 
subway system as America's subway because not only because a 
lot of Federal workers us it, but extraordinarily millions of 
tourists use our system as well. The efficient and responsive 
operations of our government depends on ensuring that the 
Federal employees of the Greater Washington Metropolitan Area 
have a safe, reliable, and effective transit system.
    In the past few years, we have seen major improvements in 
safety and reliability, though, of course, there is much still 
to be done. I find it very reassuring that Mr. Wiedefeld, our 
leader, has been working closely with Raymond Jackson, the new 
president of the ATU Local, that they have been able to improve 
the relationship between WMATA and its workers. After all, both 
the administration and those who implement the policies on a 
daily basis are critically important in improving and 
maintaining safety in our system. I appreciate that very much, 
and I know riders will appreciate it as well.
    Mr. Chairman, I was proud to work closely with Mr. 
Wiedefeld, and with the union, and with commuter advocates to 
introduce legislation in 2017 with your partnership and others, 
Ms. Norton and others from our region, to provide congressional 
authorization for the Metro Safety Commission and to support 
its work. Safety for riders and employees must remain Metro's 
No. 1 priority. That is why I am committed, Mr. Chairman, as I 
know you are, as I know Ms. Norton is, and I know the members 
of this committee on both sides of the aisle are committed to 
pursuing continued improvements in safety and reliability.
    I thank the witnesses. Mr. Chairman, before you came in, I 
had the opportunity to say hello to them individually, and I 
thank them for coming here today to share an update with the 
subcommittee and with the Congress. I look forward to 
continuing to work with my colleagues, with Metro, with the 
workers union, and with riders' advocates to ensure that Metro 
continues improving and can achieve the highest standards of 
safety and reliability. As you probably know, Mr. Chairman, the 
head of our transit system, Mr. Wiedefeld, was in Maryland for 
a long period of time and did an outstanding, extraordinary job 
there. I know Mr. Sarbanes knows that as well. But I thank you 
for this opportunity to be here at this important hearing.
    Mr. Connolly. We thank the distinguished majority leader, 
and also just thank him for his consistent ongoing leadership 
and support for Metro. It has not been uncritical, but it has 
been essential, and he has helped educate our colleagues in 
Congress as to the fact that it isn't just any transit system. 
It is the national capital transit system serving the capital 
of the free world. We have certain obligations to make sure 
that there is a partnership between this body and Metro, and 
Steny Hoyer has just been a pivotal figure in making sure that 
happens over the years. Thank you.
    Mr. Hoyer. Thank you, Mr. Chairman.
    Mr. Connolly. The chair now recognizes himself for an 
opening statement.
    Today this subcommittee continues its oversight of WMATA. I 
say ``continues'' because this is an issue that Ranking Member 
Meadows championed when he was chairman of the subcommittee. 
Mr. Meadows convened hearings on WMATA in the wake of Carol 
Glover's tragic death in the L'Enfant Plaza tunnel fire, after 
the East Falls Church derailment, and amidst crises in system 
leadership, safety, and customer confidence. Mr. Meadows put 
the spotlight of this subcommittee on WMATA against the 
backdrop of seemingly daily track fires and when all the lights 
were blinking red.
    I want to thank Mr. Meadows and my colleagues on the other 
side of the aisle for their bipartisan concern and commitment 
to making it better. Together we have been supportive of 
General Manger Paul Wiedefeld's reforms to the system, 
including his efforts to place a premium on safety and to 
combat a culture of mediocrity by holding bad actors 
accountable and demanding better service to customers.
    Mr. Wiedefeld implemented the safe track blitz on safety 
improvements, led the effort to secure expanded maintenance 
hours, terminated track inspectors who falsified track 
inspection reports, and has increased annual capital 
investments. Some of these initiatives have not been popular, 
but these improvements coincide with increases in on-time 
performance, customer service ratings, and ridership, trends we 
must strive to continue.
    Despite improvements, areas of concern, including a recent 
train collision, remain. These lingering problems demand 
continued attention. The newly certified Washington Metrorail 
Safety Commission was on the scene of a train collision near 
Farragut West earlier this month. Congress was instrumental in 
establishing this new safety oversight body, and I was glad to 
help in leading that effort with Majority Leader Hoyer and 
others. I believe Barbara Mikulski played a key role in that, 
the senator, at the time, from Maryland, and, of course, the 
delegate, our colleague, Eleanor Holmes Norton from Washington, 
as well.
    WMATA is expected to take possession of the 23-mile Silver 
Line extension of Metro to Washington-Dulles and International 
Airport in late 2020. The OIG, the Office of Inspector General, 
however, released two management alerts raising concerns about 
construction deficiencies on the project, and warning of the 
extraordinary cost, maintenance, and operational issues that 
would arise if those concerns were not properly addressed. We 
cannot allow shoddy construction by cost-cutting contractors to 
saddle Metro and its ridership with long-term costly 
maintenance problems. I know we are eager to hear how that is 
being resolved. That is not WMATA's problem yet, but it is a 
problem unaddressed we otherwise inherit.
    Finally, WMATA recently underwent immense upheaval on its 
governing Board. Former Board chairman, Jack Evans, violated 
the public trust as well as the WMATA Board code of ethics, and 
has become a walking billboard for the ethically challenged. 
Mr. Meadows and I, and Mr. Jordan, have acute concerns about 
the damage done by Mr. Evans and the Board's mishandling of the 
ethics complaints. The opacity of the Ethics Committee process 
and Mr. Evans' actions to threaten and intimidate WMATA staff, 
including the general counsel who was investigating his ethical 
behavior, did not inspire public confidence in the Board. We 
hope our witnesses can help the subcommittee and the public 
understand how new ethics reforms address these lapses so that 
they will not be allowed to recur.
    I believe the ranking member and I both appreciate how 
essential WMATA is to the operation of the Federal Government. 
In recognition of the special responsibility the Federal 
Government has to help America's subway, my Republican 
predecessor and former chairman of this committee, Tom Davis, 
led the effort to secure dedicated Federal funding for WMATA. 
It was a Republican idea. And I do appreciate that this year's 
budget request upholds this bipartisan and longstanding funding 
commitment. It is not often I find myself praising anything in 
the Trump budget, but in this one case, I do. They provided 
full funding for what we call PRIIA.
    The Passenger Rail Investment and Improvement Act of 2008 
established the successful Federal, state, and local 
partnership under which the Federal Government provides $150 
million a year in capital funding, which is matched dollar for 
dollar by the three local compact members, Maryland, D.C., and 
Virginia. Without continued Federal participation, however, 
this successful capital funding stream would unravel, leaving a 
massive shortfall in WMATA's budget and paralyzing this 
critical transit system.
    That is why I and other members of the D.C. area 
delegation--in fact, all of the other members of the D.C. 
delegation--introduced the Metro Accountability and Investment 
Act, or MAIA. The bill would authorize the $150 million in 
annual capital funding for 10 more years, contingent on the 
local jurisdictions bringing in matching dollars. But in 
addition to that capital funding, the Federal Government would 
for the first time provide $50 million a year for WMATA's 
annual operating costs, $10 million of which would be provided 
to the Office of Inspector General for its functions.
    This is important because the Federal Government in one way 
is a free rider. We do not subsidize the operations of Metro. 
The compact members do. We are, in fact, the only compact 
member--the Federal Government--that does not pay a subsidy for 
operations. This would begin a downpayment on the Federal 
Government actually being a full partner at the table.
    The $200 million in annual capital and operating funding 
authorized by MAIA would be conditional upon reforms that 
strength WMATA oversight. For example, Metro would be required 
to provide the inspector general with independent budget, 
procurement, and hiring authorities, making independent legal 
advice available to the OIG, and improving transparency of 
corrective actions. The OIG and any organization has to be pure 
as the driven snow, and the reforms outlined in MAIA would help 
ensure that the work of the IG is above reproach and 
independent of the transit system it oversees.
    It would authorize a second tranche of dedicated Federal 
capital funding subject to certain additional conditions, 
including safety and reliability certifications and 
improvements. Additionally, the bill would require local 
jurisdictions to keep their promises to escalate their 
contributions to WMATA capital costs. We should expect the 
Federal Government to take commensurate steps while WMATA 
continues to improve system performance.
    We cannot afford a death spiral of disinvestment and 
declining service for a transit system that gets our Federal 
work force to work every day, and that serves the tens of 
millions of Americans and non-Americans who come to visit the 
Nation's capital every year. We must use an incentive approach 
to invest in this essential transit system and hold the system 
accountable to providing safer and more reliable service. This 
subcommittee will continue to provide strict oversight of 
WMATA, and I want to thank, again, my ranking member, Mr. 
Meadows, and his stand-in, Mr. Grothman, for their support on a 
bipartisan basis.
    With that, I recognize the member for his opening 
statement.
    Mr. Grothman. First of all, I would like to thank you for 
holding the hearing. I know we are off to a little bit of a low 
start here, so I am not going to go through my entire opening 
statement. I will just say one more time, this is maybe the 
first time this subcommittee has met since Congressman Cummings 
passed away, so I give my condolences to the Cummings family. 
And without objection, I will submit the prepared opening 
statement to the record.
    Mr. Grothman. I am glad that we all agree that you 
shouldn't, and we look forward to talking about that we 
shouldn't be using our public position to personally enrich 
ourselves. We are going to talk about that a little bit today, 
and I look forward to hearing from the other witnesses. So with 
that, I yield back.
    Mr. Connolly. I thank my friend from Wisconsin, and I thank 
him for his kind remarks about the loss of our dear friend. He 
was very much loved on both sides of the aisle, and I know that 
he would say the work doesn't stop, and you need to continue. 
Maybe that is the best way we honor the memory of Elijah 
Cummings.
    I see that our colleague from the 10th congressional 
District of Virginia, Ms. Wexton, has joined us. Thank you, Ms. 
Wexton. Without objection, the gentlelady is authorized to 
participate in today's hearing fully.
    Hearing none, the chair now calls on the distinguished 
Congresswoman from the District of Columbia, Ms. Norton, for 
five minutes for an opening statement.
    Ms. Norton. Thank you very much, Mr. Chairman, and I echo 
your remarks on Mr. Cummings, who I am used to seeing sitting 
exactly where you are sitting today.
    You and I are in an unusual position because we are chairs 
equally. We are chairs of subcommittee which equally have 
jurisdiction over the Washington Metropolitan Transit System. I 
had been waiting to make sure that the appropriations came 
through, and I am pleased that the Senate and the House bills, 
as well as the President's budget, do have that appropriation, 
which I think speaks volumes to the importance of WMATA. You in 
your capacity as chair of Government Operations, me in my 
capacity as chair of the Subcommittee on Highways and Transit, 
have a special obligation to Metro for the country, for this 
region, for our respective districts, all of which are 
particularly dependent on Metro.
    Mr. Chairman, I would like to emphasize, because I think it 
is too seldom done, recent very encouraging developments at 
Metro. We have at Metro a declining ridership. That is true of 
these transit systems across the country, but Metro is, again, 
attracting riders, and anybody who understands climate change 
or congestion in this region has go to applaud that. Metro has 
also implemented an extensive safety and maintenance work plan 
for which we are very grateful, and now has a very impressive 
weekday on-time performance of 90 percent. It is in the 
interest of the Federal Government to do all we can to keep 
spurring these important developments.
    The Washington Metro Safety Commission was also certified 
this year, allowing the Commission to take on direct oversight 
of safety at Metro in place of the Federal Government. All 
those improvements, it seems to me, deserve the applause of 
this committee. For the chairman's constituents and mine, of 
course, Metro ties together entire neighborhoods.
    But equally important, Metro has created a really 
irreplaceable transit network on which the Federal Government 
depends every day every bit as much as our constituents. You 
have heard the numbers. One-third of the peak commuters are 
Federal employees. Of course, I say the more the merrier to get 
traffic off the road. Over half of Metro stations serve Federal 
facilities, and look how important they are: the Pentagon, the 
Smithsonian, which is, of course, part of the tourist mecca for 
the Nation's capital and the region, the Census Bureau. It 
serves the Internal Revenue Service, and, of course, the U.S. 
Capitol itself. Neither the Federal Government nor the regional 
economy would be possible today without Metro. Perhaps there 
was a time, but no longer.
    Congress does have a duty to examine Metro's operations to 
make sure that our dependency and the dependency of the region 
and that Nation is well placed. Mr. Chairman, though, we must 
not forget our ongoing obligation to hold Metro to the highest 
safety standards. We still mourn the loss of those injured and 
killed during the Red Line crash of 2009 and the L'Enfant Plaza 
incident of 2015, even more recently. Seven of the 9 who died 
in the Red Line crash were D.C. residents. Proper safety 
protocols and regular maintenance can help reduce the 
likelihood of such tragedies. In addition to considering 
operational safety, we must maintain vigilance, and I would be 
remiss if I did not mention cybersecurity threats and the risk 
they pose to this system.
    I look forward to today's testimony and very much 
appreciate our witnesses for coming forward, and you, Mr. 
Chairman, for holding this hearing.
    Mr. Connolly. I thank the distinguished Congresswoman from 
the District of Columbia, and we continue to hope D.C. voting 
rights and statehood move forward.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Connolly. Just a paid advertisement there. Now let me 
introduce our panel. We have, of course, the general manager 
and chief executive of Metro, Paul Wiedefeld. Welcome, Mr. 
Wiedefeld. We have the new chair of the Metro Board, an old 
friend and colleague from the city of Alexandria, Paul 
Smedberg. We have Geoffrey Cherrington, who is the inspector 
general of the Washington Metropolitan Area Transit Authority. 
And finally Dr. David Mayer, who is the chief executive officer 
of the Washington Metrorail Safety Commission, the very 
commission a number of us played a role in trying to get 
established and up and running.
    I would ask each of our witnesses to summarize their 
testimony. You have got five minutes, but you don't need to 
read to us. We can listen as fast as you can speak. Mr. 
Wiedefeld.

STATEMENT OF MR. WIEDEFELD, GENERAL MANAGER AND CHIEF EXECUTIVE 
    OFFICER, WASHINGTON METROPOLITAN AREA TRANSIT AUTHORITY

    Mr. Wiedefeld. Good afternoon, Chairs Connolly and Norton, 
members of the subcommittee, and members of the National 
Capital Area regional delegation. I am Paul Wiedefeld, general 
manager and CEO of the Washington Metropolitan Area Transit 
Authority, commonly referred to as ``Metro,'' and I thank you 
for the opportunity to testify today at this important 
oversight hearing of Metro. I also want to thank Chairs 
Connolly and Norton and the members from the National Capital 
regional delegation for their leadership in supporting 
dedicated Federal funding to Metro.
    As you know, as has been stated, Metro plays a critical 
role in the Capital Region, transporting roughly 1 million 
passengers a day, and as was mentioned, a third of those being 
Federal employees. Also important to note that if there were an 
emergency and we needed to evacuate the District, obviously 
Metro would play a large part in that as well.
    Since the last report to the committee, Metro is safer, 
it's more reliable, and our financial house is in order. In 
terms of the safety of Metro, since Fiscal Year 2017, track 
infrastructure incidents, such as speed restrictions or 
derailments, are down 87 percent. Track electrical fires, 
insulator and cable fires are down 35 percent, and passenger 
offloads, one of the most frustrating things for our customers, 
are down 50 percent. And this summer, we successfully rebuilt 
crumbling and unsafe platforms at six stations south of Ronald 
Reagan National Airport, the most complex project we've done 
since the construction of the system.
    In terms of service reliability, reliability of the 
Metrorail is driven by three factors. It is driven by the power 
and signaling system, meaning third rail cabling of the 
switches, and our track infrastructure ties and running rail, 
and the rail cars themselves. We've implemented the agency's 
first-ever preventive maintenance program to achieve and 
maintain a state of good repair focusing on the power and track 
infrastructure. With regards to rail cars, more than half of 
our fleet is now comprised of the 7000 series cars that are 
five times more reliable than the older cars.
    By focusing on these areas, service reliability has 
improved significantly. In 2019, Metrorail's on-time 
performance reached its highest level in seven years. This 
increased reliability combined with customer service 
initiatives has resulted in Metrorail year-over-year ridership 
gains of nearly 30 percent compared to 2018.
    In terms of fiscal management, let me first give the 
committee some context on the size of the financial commitment 
to the Metro system and how it's funded. Our current operating 
budget is just under $2 billion, funded entirely by the 
combination of local and state funds from the District of 
Columbia, Maryland, and Virginia. There are no Federal funds 
supporting the operating budget. The operating budget is 
managed very tightly, as we required, to manage the budget to 
no more than a 3-percent growth in the operating subsidy from 
funding partners at the state and local level. This has 
resulted in management-related reductions totaling $186 million 
over the last three years, and is a constant focus on reducing 
costs and seeking means to increase revenues.
    Metro's capital budget for Fiscal Year 2020 is just over 
$1.7 billion, with Federal funds accounting for roughly 29 
percent of the budget at $500 million. This Federal funding 
comes from two sources. Approximately $350 million comes from 
Federal formula funds and grants, and $150 million comes from 
their PRIIA funding, as the chairman mentioned. It's worth 
noting, again, that the $150 million in PRIIA funds is matched 
dollar for dollar by the state and local funds from the 
District, Maryland, and Virginia.
    Since we last met, Metro's total capital program has grown 
significantly as a result of state and local governments 
supporting passage of the dedicated funding for Metro that 
provides an additional $500 million dollars annually to meet 
the state of good repair. To meet these critical safety and 
maintenance needs, our focus has been on delivering the 
increased capital program. I am pleased to report that in 
Fiscal Year 2019, 99 percent of the $1.5 billion budget was 
delivered as compared to four years ago when the Authority was 
investing only 65 percent of what was requested. I'm also 
pleased to report that we just received another clean audit for 
Fiscal Year 2019.
    In closing, progress at Metro in the areas of safety, 
service reliability, and fiscal management would never have 
been possible without the ongoing Federal support and the 
support of our jurisdictional partners in Virginia, Maryland, 
and the District of Columbia. So once again, I want to express 
our thanks for the bipartisan support of PRIIA and thank the 
Administration for including the funding in the President's 
budget request for the last two years.
    Mr. Chairman, that concludes my remarks.
    Mr. Connolly. Thank you. You are a model for us all. You 
had 50 seconds left. Let's see if our recovering politician can 
do equally as well. Mr. Smedberg, welcome.

    STATEMENT OF PAUL SMEDBERG, CHAIR, BOARD OF DIRECTORS, 
         WASHINGTON METROPOLITAN AREA TRANSIT AUTHORITY

    Mr. Smedberg. Good afternoon, Chairman Connolly, 
Congressman Grothman, subcommittee members, and members of the 
National Capital regional delegation. I am Paul Smedberg, 
chairman of the Board of WMATA. I appreciate the opportunity to 
be today to discuss the Board's goals and priorities. I also 
want to acknowledge and thank the members of the National 
Capital regional delegation for their unwavering support.
    It is truly an honor to have been elected chair of the 
Metro Board, and as I take on this new role, I am focused on 
the future, and I would like to highlight my priorities going 
forward: ethics reform, PRIIA funding, customer-focused 
improvements, Office of the Inspector General.
    First, I would like to address the recent actions of the 
WMATA Board as a followup to the ethics investigation into 
former Board chair, Jack Evans. Following the investigation and 
report to the WMATA Board Ethics Committee, we determined the 
matter was resolved and no longer presented an issue under the 
ethics code as written at that time. But I and my colleagues on 
the Board recognize that there was room for improvement and 
greater transparency, and that is why my first priority as 
Board chair was to lead adoption of revised ethics codes soon 
after the Board's August recess.
    On September 26, 2019, the Board unanimously adopted a 
revised Board ethics code that strives to ensure greater 
transparency, accountability, and clarity. Some key changes 
include reported violations of Board or undisclosed conflicts 
of interest by a Board member will be referred to the WMATA 
inspector general for investigation. A written summary report 
of the investigation must be provided to the full Board. 
Determination of the Board, whether a violation or not, will be 
considered in public session, and the Board will vote on a 
written Board resolution regarding the investigation.
    There is no distinction between an actual and apparent 
conflict of interest, instead one definition requiring all 
conflicts to be similarly addressed. A conflict of interest 
arises whenever a Board member's ability to perform his or her 
duties fairly and objectively would be compromised. The amended 
annual disclosure form requires additional reporting of, A, 
clients or vendors of a Board member, Board member's employer, 
and, B, businesses or persons that a Board member or a 
household member provide services, such as legal, auditing, 
consulting, et cetera. This revised ethics code will provide 
all Metro stakeholders with the assurance that the Metro Board 
has in place an ethics code that will provide guidance and 
transparency to current and future Board members.
    Second, authorization of Federal dedicated funding. As 
chairman of the Northern Virginia Transportation Commission, I 
worked closely with elected officials in Richmond to support 
the historic legislation providing $500 million in dedicated 
funding for WMATA. However, our funding work isn't finished, 
and there is a lot at stake in terms of safe and reliable 
service now and in the future, and we need our Federal partners 
to recommit. As you know, the Federal Government depends on 
WMATA to get Federal employees to work, and to provide access 
to Federal agencies, and to support the Federal Government in 
times of an emergency.
    Customer-focused improvements. We will soon begin Metro's 
Fiscal Year 2021 budget process, which will focus on continuing 
the work to make strategic investments in our capital program 
and support improved capital planning. Our policy decisions 
will focus on continuing the service reliability turnaround we 
are experiencing, and responsiveness to customers. The Board 
will consider fair policy that addresses the needs of the 
agency and maintains affordable fares.
    Last, Office of the Inspector General. In 2006, the 
Washington Metropolitan Area Transit Authority Board of 
directors established by resolution the Office of Inspector 
General. This independent office reports to the Board and 
replaced the Board of Audits and Inspections that reported to 
the general manager. The inspector general is the Authority's 
lead for the review of WMATA's operational integrity, 
prevention and detection of fraud and abuse within the 
administration. The Board has also paid close, careful 
attention to the provisions of the PRIIA bill led by Chairman 
Connolly.
    Over the past two years, the new IG and the Board of 
directors have worked closely and collaboratively to strengthen 
and ensure the IG is operationally independent. Steady budget 
increases have been approved annually to facilitate better OIG 
work, including increased staffing levels for special agents, 
criminal analysts, and forensic auditors. Exceptions to WMATA 
policies for the OIG are now permitted and are handled on a 
case-by-case basis where the OIG can demonstrate a bona fide 
business reason that would assist the effectiveness of the OIG. 
An attorney has been hired to provide legal advice to the OIG. 
This attorney reports directly to the IG, not WMATA's general 
counsel or management. Separate office space has been created 
for the OIG staff outside the main headquarters building. The 
Board's executive committee is responsible for oversight of the 
OIG's work. The Board will continue to consult with the IG on 
the resources that he believes are necessary to strengthen the 
work of that office.
    And finally, Chairman Connolly, the Board is also looking 
forward to providing policy guidance on longer-term issues in a 
number of areas, including technology advances, responses to 
climate change, and addressing the new regional mobility 
paradigm.
    Thank you for this opportunity to be with you here today. I 
will be pleased to answer your questions.
    Mr. Connolly. Thank you, Chairman Smedberg.
    Mr. Cherrington?

     STATEMENT OF GEOFFREY CHERRINGTON, INSPECTOR GENERAL, 
         WASHINGTON METROPOLITAN AREA TRANSIT AUTHORITY

    Mr. Cherrington. Chairman Connolly, Congressman Grothman, 
and distinguished members of the subcommittee, thank you for 
inviting me today to discuss the role of the OIG at WMATA. I've 
submitted a written statement and ask that it be entered into 
the record.
    Mr. Connolly. Without objection.
    Mr. Cherrington. Sir?
    Mr. Connolly. Without objection.
    Mr. Cherrington. Thank you, sir. The WMATA OIG is an 
independent and objective unit that conducts and supervises 
audits, program evaluations, and investigations relating to 
WMATA's activities and detects and prevents fraud and abuse in 
WMATA activities. It keeps the Board fully and currently 
informed about deficiencies in WMATA activities along with the 
necessity for and progress of corrective action.
    As you know, the WMATA OIG is not a Federal OIG. We're not 
covered by the provisions of the Inspector General Act of 1978, 
as amended. Our authority derives from the WMATA compact and 
the 2006 resolution by the WMATA Board of directors.
    Before my appointment as WMATA inspector general, however, 
I had over 32 years of law enforcement experience, including a 
combat tour in the first Gulf War. Twenty-two of those years 
were in the Federal inspector general community where I held 
senior executive and investigative positions in the OIGs of the 
Departments of Defense, State, Agriculture, and the General 
Services Administration. Since assuming office in April 2017, I 
have modeled the WMATA OIG after the Federal inspectors general 
to the extent possible.
    I have been able in practice to operate independently of 
WMATA management, in most respects thanks to strong support 
from the current Board of directors, especially Chairman Paul 
Smedberg, and GM/CEO Paul Wiedefeld. As a result, my office has 
had some success in pursuing our top priorities of safety, 
cybersecurity, and procurement improvements in WMATA 
operations. At the same time, the only statutory provisions for 
WMATA IG are in the compact. They're very general. They would 
provide scant protection to IG independence and objectivity if 
a future Board or senior management were to alter their 
policies or practices regarding the IG.
    My written statement describes in more detail the key 
challenges facing my office in the area of statutory 
independence, in particular, regarding our lack of law 
enforcement authority, lack of procurement, hiring, and other 
administrative authorities, and lack of budgetary independence. 
Despite the challenges, we've achieved notable results in 
Fiscal Year 2019, identifying $36 million in questioned costs 
or funds put to better use, issuing 96 contract audit reports, 
finding $9-and-a-half million in possible savings, contributing 
to six criminal proceedings--four indictments, two 
convictions--and issuing 11 reports of investigation, five 
management alerts and three management assistance reports. I've 
coordinated early on with Dr. Mayer and the Safety Commission, 
and we both have vowed to work together and collaborate on 
safety issues affecting WMATA.
    That concludes my prepared remarks. I'd be happy to answer 
any questions.
    Mr. Connolly. You are a star. Two minutes left. Whatever he 
wants, make sure he gets it.
    [Laughter.]
    Mr. Connolly. Dr. Mayer?

   STATEMENT OF DAVID MAYER, Ph.D., CHIEF EXECUTIVE OFFICER, 
             WASHINGTON METRORAIL SAFETY COMMISSION

    Mr. Mayer. Chairman Connolly, Ranking Member Meadows, 
Congressman Grothman, and members of the subcommittee, first, I 
want to express our condolences for the loss of Chairman 
Cummings last week. Second, thank you for having the WMSC 
before you to testify, and thank you, all of you, who were 
instrumental in standing up the WMSC. Finally, I want to 
recognize WMATA for its willingness to work with the new safety 
oversight framework.
    I was managing director of the NTSB during the 
investigation of the Fort Totten collision. I'm well aware of 
the complexities of Metrorail and its importance to this 
region. I'm also a customer and personally depend on Metro. 
It's as WMSC CEO and with that perspective that I appear before 
you today.
    I wish to briefly highlight some key points. We are the 
independent state safety oversight agency, or SSOA, for 
Metrorail. In 2012, Congress bolstered the requirements for 
transit oversight nationwide, and in 2016, FTA regulatory 
action triggered a 2019 congressional deadline for each state 
with a rail transit agency to establish a strengthened SSOA. As 
the new SSOA framework developed, it became apparent by the 
2015 L'Enfant smoke event that Metrorail faced urgent safety 
challenges. The investigation found many deficiencies, and the 
FTA took direct charge of safety oversight.
    In 2017, the region took steps to establish an independent 
SSOA and to respond to the issues raised by L'Enfant. Virginia, 
Maryland, and D.C. enacted identical legislation establishing 
the WMSC, which Congress ratified, granting the WMSC 
significant enforcement and access powers. The jurisdictions 
appointed commissioners who elected Christopher Hart as chair. 
I joined as CEO in 2018. In March 2019, the FTA officially 
certified our oversight program, returning the WMATA's safety 
oversight to the region. We are fully up and running. The 
legislation provides extensive authority, which we use to carry 
out six core functions that I'll briefly touch on.
    We require WMATA to conduct thorough investigations of 
safety incidents. Ultimately, we own the investigations. If the 
reports meet our standards, our commissioners will adopt them. 
Otherwise, we require WMATA to resolve any issues. So far that 
process has worked. We've adopted 17 investigative reports of 
public meetings, which we've held monthly since March. We 
inspect tracks, and structures, and rail cars, and have carried 
out observations on trains and in the rail control center. 
We've undertaken 57 risk-based inspections since we were 
certified in March, pointing out deficiencies and verifying 
fixes.
    We conduct safety audits. We expect to present our track 
audit findings in the coming weeks, and our second audit will 
focus on protecting track workers. In the months ahead, we'll 
audit operator and controller performance, traction power, and 
even elevators and escalators. We oversee corrective action 
plans, or CAPs. When certified, we integrated 101 CAPs the FTA 
had been overseeing into our framework. Many predated the FTA's 
assumption of safety of oversight. Since certification, we've 
found WMATA has taken acceptable action to warrant closure of 
39 CAPs, and based on our own investigations, we're issuing new 
findings that will necessitate some new CAPs.
    Like all our functions, transparency is critical. I'm happy 
to report that as of today, our document with CAP updates, our 
CAP tracker, is now on our public website to help the public 
evaluate progress. We assess emergency preparedness. L'Enfant 
was a wakeup call that WMATA and its regional partners needed 
to improve how they handled emergency response procedures, and 
it appears that WMATA has made significant strides through 
drills and exercises.
    Our last core function is safety certification of major 
capital projects. That means ensuring WMATA best uses safety 
engineering practices. This function will be carried on Silver 
Line Phase 2, where we provide a second set of eyes and will be 
part of the decision to open the extension. In carrying out 
other key tasks, we've built a tremendous relationship with 
WMATA's inspector and have worked with his office on several 
matters.
    I'll close with a mention of a collision that occurred on 
October 7 at 12:54 a.m. Two eastbound trains that were not 
carrying passengers collided between Foggy Bottom and Farragut 
West. This incident highlights how we participate in 
investigations, our oversight of CAPs, and our commitment to 
transparency. Of course the investigation is ongoing.
    We will continue our safety oversight efforts as I've 
detailed them today, and I look forward to keeping you informed 
and to your questions. Thank you.
    Mr. Connolly. Thank you, Dr. Mayer. Thank you all so much 
for your testimony. I am going to yield my first five minutes 
of questioning to the gentleman from Maryland, Mr. Raskin, who 
has to be out of here by 3 o'clock.
    Mr. Raskin. Mr. Chairman, thank you very much for your 
kindness in doing that. Thank you all for your testimony. I 
will just preface my questions by saying I am a huge champion 
of the Metro. I was growing up here when it as built, and so I 
went to my first party on the Metro. I went to my first prom on 
the Metro. Had my first date on the Metro. I am somebody deeply 
invested in its success, and I want to bring it back to its 
glory days.
    Let me start with this question. It has been three years 
since Metro cut back to the nighttime hours from midnight to 
11:30 on the weekdays and then 3 a.m. to, I think, it is 1 a.m. 
And I still hear from constituents who are working late, you 
know, hotels, restaurants in the thriving, you know, nighttime 
sector that we have now, for whom this is a problem. What is 
the timetable or schedule for getting back to the earlier 
nighttime hours, Mr. Wiedefeld?
    Mr. Wiedefeld. Yes. Just to put it in context, that was in 
place to deal with preventive maintenance that we never did, so 
that was very important. We are making great progress. We will 
be preparing our budget next month. We want to get back those 
hours as quickly as we can, but we cannot do it at the expense 
of keeping the system safe and keeping to that maintenance 
schedule that we need to have. So I am hoping to bring certain 
things to the table in our budget to start to bring back those 
hours because, again, that is what we want to do as quickly as 
we can and as quickly as it is safe to do it.
    Mr. Raskin. Good. Mr. Chairman, you will recall that there 
was an effort at the hearing that Congressman Norton chaired 
for us on D.C. Statehood to essentially justify the 
disenfranchisement and nonrepresentation of people in 
Washington by virtue of alleged ethics violations at WMATA, and 
potential political corruption by a D.C. councilman. And to my 
mind, this transparently political argument depends on theories 
of guilt by association, and collective guilt, and mass 
punishment that are totally antithetical to our notions of 
individual responsibility and also democratic representation in 
government.
    Having said that, we have a responsibility to conduct 
oversight over WMATA, and the chair, Mr. Evans, resigned from 
the Board after the Board Ethics Committee found that he had 
knowingly violated the WMATA code of ethics. He apparently lied 
about his work on behalf of private clients and the subsequent 
ethics investigation into his self-enrichment. As troubling as 
his behavior was, we were also focused on the complete 
breakdown in the transparency and integrity of the Board's own 
ethics process. So what I would like to understand today is 
what happened and how that process became so dysfunctional, and 
how the reforms recently adopted will prevent similar problems 
from happening again.
    Mr. Smedberg, I am going to run through some of the lapses 
in the ethics process as I understand them and then ask you to 
explain to the committee how the new reforms address them. 
First, there was no report or timely statement issued at the 
end of the investigation to let the public know what had 
transpired and how the Board planned to address Mr. Evans' 
actions. How did this happen, and how did the reforms address 
the problem?
    Mr. Smedberg. Congressman, the Ethics Committee came to a 
determination, and we determined that the issue was resolved, 
and that was allowed under the current code at the time. But 
myself and other members of the committee realized that that 
was not probably good for the organization and the Board moving 
forward, and that we needed----
    Mr. Raskin. And not good for the public.
    Mr. Smedberg. Right, and the public, that we needed reform, 
and we needed greater transparency. That is why I pushed for 
the reforms and had the full support of the Board. As I said in 
my opening statement, I outlined some of the key things. I 
think a couple I want to highlight again, first all conflicts 
will be referred to the IG. The IG will then make a 
determination whether it was a violation or not. That written 
summary will be public, will be discussed by the Board and 
acted on by the Board in public. So that is, you know, direct 
attempts to address a lot of the concerns that you----
    Mr. Raskin. Got you.
    Mr. Smedberg [continuing]. and a lot of other people have 
had.
    Mr. Raskin. Several of the members, including Mr. Evans, 
made false statements in public about the adjudication of the 
investigation and its contents. How would your reforms address 
and prevent a repeat of that?
    Mr. Smedberg. Again, I think having the IG report out, 
bring the report to the Board in public and having the Board 
discuss whether there was a violation or not in that written 
summary in public, I think, will help address----
    Mr. Raskin. Okay. And finally--I can get one more in here--
the subject of the investigation apparently threatened and 
intimidated staff to influence the outcome of the Ethics 
Committee process. How would the reforms address something like 
this from happening?
    Mr. Smedberg. Well, I think they are, you know, again 
sending things to the IG for independent review outside of the 
committee process where staff was involved and helping organize 
things, I think, is going to go a long way. And, again, 
reporting out to the Board in public with a written summary, 
you know, I think, and that is our attempt to address that 
issue.
    Mr. Raskin. I appreciate that. My time is up. Thank you, 
Mr. Chairman.
    Mr. Smedberg. Thank you.
    Mr. Connolly. I thank the gentlemen. Mr. Grothman?
    Mr. Grothman. Yes, I just have a few questions here. First 
of all, when you look at the statement, in the last two years, 
and this is for Mr. Wiedefeld. In the last two years, pension 
contributions have gone up 21 percent. I would like to ask why 
the big increase, and what type of pension plan are we giving 
the employees.
    Mr. Wiedefeld. The pension system that we have, we have two 
parts of it. One is for represented employees, meaning they are 
unionized, and non-represented employees. So the represented 
employees are through a CBA, collective bargaining agreement. 
That is how that has been established over decades. We 
negotiate that every so often. There are certain things that we 
try to get as part of that process, and there are certain 
things that the representatives----
    Mr. Grothman. We only got five minutes. What is the plan? 
What are the benefits? When is the expected retirement?
    Mr. Wiedefeld. Retirement is they basically get a portion. 
Like most pension plans, it is based on how many years you work 
there, a portion of your salary. It is multiplied out. It does 
allow, for instance, that you can apply overtime toward that 
number. That is part of the contract. It requires the employee 
to contribute roughly three percent. That is part of the 
contract. So those are some of the----
    Mr. Grothman. And what is the benefit? What is the benefit?
    Mr. Wiedefeld. It is a salary, in effect, a salary going 
forward based on, again, there are multipliers----
    Mr. Grothman. Yes, I know. We get a benefit here.
    Mr. Connolly. Excuse me. In other words, defined benefit.
    Mr. Grothman. Compute it. Tell us what it is. When is the 
expected retirement? What is the average payout for somebody? 
You know, it shouldn't be that difficult. If I make $60,000 a 
year for 30 years there, what is my benefit?
    Mr. Wiedefeld. It would be about, that would be around 
$40,000, I believe, but I will get back to you with the exact 
number on that.
    Mr. Grothman. How many years do you have to work to get a 
full benefit?
    Mr. Wiedefeld. It varies. It depends. I can get you all the 
details of the pension plan. I don't have all the details----
    Mr. Grothman. Okay. Well, why the 21 percent increase? What 
is the deal here? Why do we have a 21 percent increase in the--
--
    Mr. Wiedefeld. I am not sure what that is referring to.
    Mr. Grothman. It says, ``Pension contributions have risen 
over $32 million, a 21 percent increase since Fiscal Year 
2017.'' That would be in two years a 21 percent increase in 
pension contributions. Is that accurate or not?
    Mr. Wiedefeld. Again, I am not sure what you are referring 
to, but I would have to followup on that.
    Mr. Grothman. Well, somebody wrote it here. Okay. Recently, 
D.C. decriminalized what I think they refer to as fare evasion, 
which I take it to mean jumping these things. I ride the Metro, 
but at least somebody puts down here it costs us $36 million a 
year. Do you think that is true?
    Mr. Wiedefeld. Our estimates are in that range, yes.
    Mr. Grothman. Okay. Could you comment on giving up $36 
million? I always love riding the Metro. It is a blast. But I 
know some people don't like to ride it or they say ``you are 
riding the Metro.'' And I suppose that is because they think it 
is, I don't know, dangerous or something. I think fare jumping 
sometimes intimidates people or they don't like it. Could you 
comment on the idea that we are decriminalizing fare evasion, 
which apparently causes some people to think that a higher 
number of people are going to, you know, jump over there and 
ride the train when they shouldn't? Could that result in less 
people wanting to ride the cars, and also your $36 million a 
year, could you comment on that?
    Mr. Wiedefeld. Yes. The decriminalization we did not 
support. It is not consistent across the region. Maryland and 
Virginia all have different ways that they deal with fare 
evasion. We wanted it consistent for our police and for our 
passengers, but, you know, the District decided that is what 
they wanted to do.
    Mr. Grothman. Okay. It is too bad, and I am not a 
Congressman who travels abroad a lot. About 15 years ago I went 
to Taiwan, and it was such an overwhelmingly law-abiding city, 
and I hope we try to make our capital as law abiding as 
possible. It should be kind of the star jewel of the United 
States. Next question. As far as percent of operating costs 
paid by fares, could you compare the Washington system to 
Chicago, say, or some other? We will say Chicago.
    Mr. Wiedefeld. Sure. We are one of the highest. We recover 
roughly 42, I think it is about 42 percent out of the fare box. 
I think the average in transit systems is in the 30's, low 
30's.
    Mr. Grothman. Here it says, and maybe the people that give 
me this information aren't right. Operating revenues only cover 
22 percent of the total budget. Is that accurate or they are 
making that up when they----
    Mr. Wiedefeld. I don't think that is accurate.
    Mr. Grothman. Okay. Okay. Well, there is my time, and thank 
you giving me an extra 10 seconds.
    Mr. Connolly. Absolutely. Thank you, Mr. Grothman. At this 
time, I will enter into the record on the subject of Metro's 
pensions an article from the Washington Post by Freddy Kunkle a 
year ago, last September, September 22, that talks about the 
pension issues at Metro.
    Without objection, so ordered.
    Mr. Connolly. The gentlelady from the District of Columbia.
    Ms. Norton. I want to thank my friend from the region, Mr. 
Connolly, again, for this very important hearing. Again, I want 
to congratulate you, Mr. Wiedefeld, for the progress that Metro 
has made under your leadership. That is what I tried to 
emphasize in my own remarks.
    I have a question for Mr. Mayer about cybersecurity. Mr. 
Mayer, I am not alone among Members of Congress who have 
expressed concerns about the purchase of Metro cars, about 800 
of them, from China. We are concerned it would give an avenue 
for espionage into our transit system. And many of our security 
experts, of course, come to work every day to the capital on 
that transit system. So, well, I guess perhaps Mr. Cherrington 
is who I should ask this question. Does the purchase of Chinese 
rail cars pose a security concern to you or to anyone you know 
of?
    Mr. Cherrington. Ms. Norton, it does pose a concern. I 
can't tell Metro what to buy and where to buy it, but I have 
raised the red flag on particularly buying these cars from 
China. I would say the company that sells them undercuts all 
the competitors in the United States and around the world. I 
believe they do that for a reason. We issued a management alert 
regarding this. We believe that whenever a subway system runs 
underneath something, particularly as critical as the Nation's 
capital, the seat of power in the world, and all the targets 
here, we are concerned that it can be controlled by a third 
party or outside of the Metro system.
    We can't guarantee that it would, but we have raised the 
alarm bells that it may, and we believe a state-owned agency 
that is selling it that doesn't have the best track record for 
cybersecurity certainly could do that. Now, it may never 
happen, but we have raised the alarm bells. And, yes, if you 
ask if we are concerned, the OIG is concerned, yes, ma'am.
    Ms. Norton. I appreciate that response. I do believe it is 
your professional duty to raise those concerns, and I do want 
you to know that Congress is hearing those concerns. Do you 
plan to audit or investigate this planned purchase?
    Mr. Cherrington. Yes, ma'am. We audit all of the major 
purchases anyway. We are looking at overhead costs, the 
contractings that are in the contract. We also made a 
recommendation to the general manager, which he accepted, to 
make sure that cybersecurity provisions are in the procurements 
before they are even let out so that we are protected that way. 
But, yes, that is something that we are going to be tracking 
closely, whatever the general manager decides to do.
    Ms. Norton. How about you, Mr. Smedberg? Do you or other 
Board members have concerns about the purchase of Chinese rail 
cars for a system here in the Nation's capital?
    Mr. Smedberg. We had been briefed----
    Ms. Norton. Would you please turn on your mic?
    Mr. Smedberg. I am sorry, Congresswoman. We had been 
briefed, but this is an active procurement, and the Board has 
delegated the authority to the general manager in this regard. 
You know, we have confidence in he and his senior team who are 
leading this effort.
    Ms. Norton. Thank you. I am pleased that all of you are 
alerted to the possible risks posed. Mr. Mayer, I note that 
there have been a number of corrective actions--101, that is a 
lot--when you inherited from FTA the safety commission that has 
been a major concern here in the Congress, and you closed 39. 
You had worked on 32. But I have got to note the Farragut West 
train collision on October 7, so recently. Have you prioritized 
that? You had not gotten to that matter. Have you prioritized 
this among your remaining corrective action plans?
    Mr. Mayer. Our focus has been on assessing each of the 
corrective actions, ensuring that the deliverables are well 
understood by both parties, and also working with WMATA to set 
reasonable timelines for the completion of each of the CAPs.
    Ms. Norton. Well, suppose an accident--I just talked about 
one--occurs. Does that cause you to change your priorities?
    Mr. Mayer. I asked my staff on the day after the accident 
to take a look at the entire body of CAPs to identify any CAPs 
in the list that could prevent train-to-train collisions. That 
work is ongoing, and we will report out on it in a couple of 
weeks at our next public meeting.
    Ms. Norton. Well, I wish you would get back to us on any 
priorities you make when there are accidents or incidents on 
the system as you go about your work. And I thank the gentleman 
for----
    Mr. Connolly. I thank the gentlelady and thank her for her 
leadership. Is Mr. Sarbanes coming back? In his absence, the 
chair is happy to call on the gentlelady from Virginia, 10th 
District, Ms. Wexton. Welcome.
    Ms. Wexton. Thank you, Mr. Chairman. Thank you for yielding 
and for inviting me to participate in this hearing. I feel like 
I am back on the Northern Virginia Transportation Commission 
where I served for five years when I was in the state 
legislature. I was glad to hear you bring up the dedicated 
funding for state for good repair and maintenance, which was a 
long time coming obviously. I was very proud to vote for that 
as well as the safety commission.
    Metro is vital to the success and growth of Northern 
Virginia and the daily operation of the Federal Government. 
Silver Line Phase 1 has already given my constituents who live 
in and around Tysons Corner, McLean, and Reston access to 
Metro. And once Phase 2 is completed, constituents in my home 
of Loudoun County will have easy access to the District, and 
D.C. residents will find it easier than ever to travel to 
Dulles Airport or job centers in Northern Virginia. But despite 
this great potential, as we have discussed here today, the 
Silver Line faces many current and future challenges that need 
to be addressed in order to ensure that Metro is safe, 
reliable, built to last, and affordable and accessible to all.
    Now, with regard to that affordability, there have been 
reports of potential fare increases being considered in the 
near future. Given that WMATA factors mileage into its fare 
schedule and that those riders who are boarding the system at 
Wiehle and traveling into D.C. are already paying the maximum 
fare, Mr. Wiedefeld and Mr. Smedberg, can you tell me, A, if 
fare increases are being considered, and if they are, what 
impact do you think that would have on the maximum fare for 
those folks who are traveling on Phase 2 of Silver Line?
    Mr. Wiedefeld. The Board does have a policy of visiting 
fare increases every two years. We have not done one for more 
than period, so obviously every year when we prepare the 
budget, we look at that. And whether or not we would then also 
adjust the CAP would be another issue associated with that. Our 
biggest focus, though, is getting people to use the SmartTrip 
cards and providing a discount for that even if we were to 
increase fares because that is really the best way to use the 
system for us, both operationally and efficiency wise, rather 
than collecting lots of dollars if everyone, more people get to 
use the Smart Card. So we tend to give benefits for people that 
do that. So as we explore our budget for next year, that is one 
of the things we will be considering so it doesn't penalize 
people for using the system. The more you use the system, the 
more of a discount, in effect, that you get.
    Ms. Wexton. Very good. Now, has WMATA considered other 
revenue sources, such as advertising or new parking passes or 
things like that as a way to not have to increase fares?
    Mr. Wiedefeld. We do. Under the three-percent subsidy cap, 
the current budget year we have to come up internally, in 
effect, with $37 million. So that is exactly what we are 
looking at is obviously more efficiencies and then also ways to 
generate revenue, non-fare revenue. So it is advertising. Quite 
a bit there. Potential naming rights, things of that sort. And 
then just thinking out of the box in total about joint 
development is obviously another avenue for us as we do that. 
So all those things are the things that we have in the works, 
and I believe you will see more of that in the very near 
future.
    Ms. Wexton. Very good. Thank you.
    Mr. Smedberg. And, Congresswoman, just what the general 
manager said. You know, the Board is supportive given the cap, 
the three-percent cap, you know, looking at innovative ways to 
bring new revenue in in addition to bringing in new riders. The 
Silver Line Phase 2 is obviously going to be important to that 
ultimately, but just continuing the improvements and safety and 
reliability of the system, the customer experience, bringing 
riders back in is also part of that formula as well.
    Ms. Wexton. Thank you very much. And, Mr. Cherrington, I 
want to draw your attention to your two management alerts, one 
from August 16, 2019, having to do with the results for core 
testing of concrete panels, and the other from August 19, 2019, 
having to do with the track ballast at the railyard. In these 
management alerts, you brought up that you had some 
recommendations, and that you were recommending that WMATA not 
accept either the railyard or the concrete panels at the above-
ground stations unless and until everything was fixed. What 
confidence do you have that MWAA and Capital Rail constructors 
and the other contractors are doing what they are supposed to 
be doing since that time?
    Mr. Cherrington. Congresswoman, we issued the two 
management alerts to provide to the general manager. He asked 
us to look at this back in August 2018, to conduct an 
independent review not only of the concrete but also of any 
other issues we found. Those were two that we found. We 
immediately notified the general manager.
    Our experts' report should be out within a couple of 
months, with the final recommendations on what we should or 
should not do. That means if this spray actually penetrated the 
concrete and if it can hold, and all subsequent spraying of 
that maintenance over the years, how that is going to take 
place, how much it is going to cost, and also if the ballast 
can be recondition and if it has been safety utilized.
    So we hope to have our final report out with the 
recommendations, like I said, within hopefully less than two 
months, depending on any unforeseen events.
    Ms. Wexton. Well, thank you. I just would caution WMATA 
against accepting the project without assurance that it really 
is built to last, because even if we take some money now and 
put it an escrow account there is no guarantee that the 
subcontractors and contractors will be around when we need to 
take advantage of that.
    Mr. Cherrington. We understand completely. Thank you, 
ma'am.
    Ms. Wexton. Thank you.
    Mr. Connolly. The chair heartily agrees with the 
gentlelady. We must--we can't allow that.
    Ms. Wexton. Thank you.
    Mr. Connolly. Thank you for bringing that up.
    The gentleman from Maryland, Mr. Sarbanes.
    Mr. Sarbanes. Yes, thank you, Mr. Chairman, and I want to 
thank all of you for coming today and giving us this update on 
the progress that WMATA is making. I think in many respects, at 
a time when we are seeing these nationwide decreases in the use 
of public transit, you all managed to flip the script. And I 
know in some ways that is just about getting back to an earlier 
baseline. But to be able to do that in the face of these 
trends, I think, is very commendable.
    Mr. Wiedefeld, you had said that for the first eight months 
of 2019 Metrorail provided 2 million more trips compared to the 
same period last year, this in spite of the fact that we had a 
shutdown of the Federal Government and we had a summer shutdown 
of service south of Reagan National Airport. So that is a very 
commendable achievement.
    One of the phrases, actually, that Elijah Cummings used all 
the time was that we should be effective and efficient. That 
was his favorite phrase. Probably in the context of this 
hearing and some of the testimony we have gotten he would say 
an ethical, ``effective, efficient, and ethical.'' I think that 
WMATA is leaning into all of those attributes as an 
organization right now.
    But Mr. Wiedefeld, speak to both the--my sense, and maybe 
you can just expand on this, is that the increased 
favorability, trust, whatever it is that is the best way to 
describe how people view--how the riders view the system, that 
the gains you have made there are a combination of real 
improvements, and if you would like to speak to some of those I 
encourage you to emphasize that again.
    But also, the candor with which you have pursued things, 
because I think that just the way a dog can smell fear, a 
commuter can smell when they feel like they are not being 
leveled with, in terms of safety issues, in terms of how long 
something is going to take to get done.
    And just the mere fact of trying to be transparent, calling 
it like it is, saying to people, ``Well, if we are going to do 
X it means we are going to have to suffer Y for a certain 
period of time, but X appears to be something you value so we 
are going to go do that, and it is going to hurt.'' Just that, 
in and of itself, has helped to improve the image of WMATA. I 
credit you with a lot of that, because I have seen the work you 
have done wearing other hats in the past.
    But talk, if you would, to that in particular, that idea of 
being candid, being transparent, being as honest as you 
possibly can, every single day, with the challenges that are 
faced. Because we have found it refreshing, in terms of the way 
you have come and presented, but I imagine that your riders are 
finding it refreshing as well. It is a tough standard to stick 
with every single day. So you add a burden to your job 
description when you invite that but I think it makes a huge 
difference.
    Mr. Wiedefeld. Thank you, Congressman. One of the biggest 
things that we did as an agency, literally from the ground up, 
was that we put safety above service, and we believed it. So 
what you have seen play out is that we make decisions based on 
that first, and to be frank, that is not historically what we 
were doing, because of the pressures to put service out there, 
whether it was putting service out there that shouldn't be put 
out, whether it is putting out hours of service at the expense 
of maintenance and safety. And I think, unfortunately, we had 
gotten to a point where we had lost the credibility in the 
community, and we had to focus on rebuilding that credibility 
by doing what we said we were going to do.
    It is painful. The hours is one example of that. The 
platform work, where we had to shut down platforms. We do--we 
are constantly communicating with our customers. We did focus 
groups when we started the Back to Good initiative, and we took 
some heat for calling it Back to Good versus Back to Great, or 
something else. But literally they said to us, ``Do not tell us 
that, because we know what this system was. We lived it for 20, 
30 years, where there were no issues. And we have seen it 
decline. So don't tell us that you are going to get back there 
because we know you are not going to get there. Get us back to 
good.'' So that terminology literally came from our customers.
    So we want to keep that. You know, it is something that we 
have to constantly remind ourselves that the customers have a 
certain view and that is what we should be focusing on. It is 
not my view. It is not necessarily other pressures that we get. 
But what does the customer really want? They want it safe and 
they want it reliable, and that is what we continue to focus 
on.
    Mr. Sarbanes. Well, if I had a choice between a slow that 
said ``Make WMATA Great Again'' or ``Wait and Make WMATA Good 
Again,'' I would choose the latter.
    I yield back.
    Mr. Connolly. I thank the gentleman, and I have got to say, 
maybe that is a catchy phrase. It is reminiscent of Garrison 
Keillor's Lake Wobegon days, where the local grocery was called 
Ralph's Pretty Good Grocery. I don't think we want to settle 
for that. We will get back to good but we want to get to 
excellent.
    I want to ask a series of rapid-fire questions for the 
record, and I thank you, Mr. Sarbanes, for joining us today.
    Let me begin with maybe the easiest. Mr. Smedberg, what is 
the position of the Metro Board with respect to the MAIA 
legislation I described, that now has the unanimous support of 
the National Capital Region Delegation?
    Mr. Smedberg. We support the bill 2520.
    Mr. Connolly. Excellent answer. Would it make a difference 
getting the Federal Government--two, among others, but, well, 
maybe three things new in that bill. One is to power the IG and 
give him some money out of the operating subsidy we provide. 
Good thing?
    Mr. Smedberg. Good thing.
    Mr. Connolly. We also provide an additional pot of capital 
funding, contingent inter alia on safety certification 
measures. Would that also be a helpful thing, from your point 
of view, over and above the basic $150 million PRIIA funding?
    Mr. Smedberg. That would be a good thing.
    Mr. Connolly. Another good thing. And then just the general 
concept of the Federal Government finally stepping up and 
providing some subsidy, operating subsidy for the first time. 
Any views on that?
    Mr. Smedberg. That would not only be a good thing, that 
would be a great thing.
    Mr. Connolly. Great thing. Getting from good to great 
there, Mr. Wiedefeld. Okay.
    Well, thank you, because we need to know that we do have 
Metro--the local support for this bill moving forward, if we 
are going to make a case. But I personally have long believed, 
as a local official, the Federal Government is a free rider. It 
doesn't provide operating subsidies and everyone else has to 
basically underwrite Federal employees using metro.
    Mr. Smedberg. And as you know, Mr. Chairman, in Virginia, 
in particular, the localities are the ones that pick up the 
lion's share----
    Mr. Connolly. Exactly.
    Mr. Smedberg [continuing]. as you are well aware.
    Mr. Connolly. Unlike Maryland.
    Mr. Smedberg. And having the Federal piece there is vitally 
important for, so the general manager, his team, can really 
continue the safety, reliability, and the maintenance issues.
    Mr. Connolly. Exactly. Now let me you, Mr. Smedberg, and 
you, Mr. Cherrington, just some quick questions of Mr. Evans. 
We can't ignore this subject. It seems to me--and I think to my 
colleagues on both sides of the aisle, l'affaire Evans, as 
chairman of the Metro Board, really revealed some weaknesses in 
internal governance. No checks and balances on ethical 
behavior, no commitment to transparency, in terms of an 
investigation in the findings, no clear disciplinary measures 
in place when an ethical infraction is found.
    In this case we had a situation where, from the beginning, 
the process was flawed, not documented, not carefully recorded 
and reported. There were lies about what the report did and did 
not find, and initially he was cleared. There was nothing--not 
true. There was another member of the Metro Board, also from 
D.C., who decided his role was to be protector of the gentleman 
accused of ethical violations. And really, there were no 
automatic penalties. Ultimately the gentleman under pressure 
resigned.
    But that suggests to me a system that is woefully 
inadequate, in terms of self-policing, and what goes wrong with 
that is loss of confidence. We don't need that right now, 
especially up here, where, you know, Ms. Norton and I and Ms. 
Wexton and others are trying to build support among our 
colleagues for why this Metro system is different. It needs the 
full support of the Federal Government. That incident didn't 
help anything. It is more than tell me it has gotten better. 
Specifically, is my delineation of what happened a fair 
account, Mr. Cherrington, and are you, as the IG, confident 
that measures are now in place that that couldn't happen again?
    Mr. Cherrington. Yes, Mr. Chairman, and, yes, we are 
confident.
    Mr. Connolly. Very good. Thank you very much. Do you want 
to expand?
    Mr. Cherrington. Sir?
    Mr. Connolly. Do you want to expand on, well, like what? 
Why should we be confident?
    Mr. Cherrington. Because we believe the OIG can objectively 
and independently conduct any ethical investigations of Mr. 
Evans or any in the future, and we can also trace back and look 
at any policies from the past or in the future.
    Mr. Connolly. But that is your office. What about the--
wasn't there like an ethics committee, Mr. Smedberg----
    Mr. Smedberg. Yes.
    Mr. Connolly [continuing]. of the board?
    Mr. Smedberg. Yes, Mr. Chairman.
    Mr. Connolly. And it completely fell down on the job, 
didn't it?
    Mr. Smedberg. Well, I am not sure we completely fell down 
on the ground. We did do an expedited review. We had findings. 
As a committee we came together on consensus on one of the 
findings. But we did realize, as you have highlighted in some 
of your comments there, that there were deficiencies in the 
process, and we admit that and accept that. And the effort over 
the summer, working with the general counsel and others, we 
reviewed what other systems do in the ethics area, and we 
looked for best practices. The reforms that we put together and 
brought forward to the board and that were ultimately approved 
we think are going to set a very high standard for us in terms 
of accountability, transparency.
    In addition to what is outlined, the ethics forms that we 
fill out annually have been changed, are more specific in 
nature. Getting rid of any definition of actual versus apparent 
conflict, erasing that, including household members, the 
definition of household members.
    Mr. Connolly. Let me ask you, Mr. Smedberg, is there a 
provision now so that if there are serious charges like that 
against a member of the board that member of the board, without 
prejudice, steps aside pending adjudication of those charges?
    Mr. Smedberg. Yes. There would be--that person would step 
aside if he or she would----
    Mr. Connolly. Which is not what happened in the Evans case. 
Correct?
    Mr. Smedberg. Correct.
    Mr. Connolly. All right. Is that new? Is that provision 
new?
    Mr. Smedberg. Well, there would be--well, that was already 
in the code. There was no real specific, as to what happens in 
that regard. We would certainly be open to--you know, they 
would--we assume they are going to step aside during any ethics 
investigation. The current code does not prevent them from 
participating in other board-related matters, but as it relates 
to the specific ethics review or violation, or potential 
violation, that person would step aside, or would recuse 
themselves.
    Mr. Connolly. I guess I want to be reassured that, God 
forbid, but if be the chairman of the board, for the sake of 
the organization that chairman steps aside pending adjudication 
of the issues.
    Mr. Smedberg. Yes. I mean, we would be open to, you know, 
exploring that option, in a broader context, not just the 
review of the ethics committee.
    Mr. Connolly. Yes. I highly commend it to you, because 
yours is not just one audience.
    Mr. Smedberg. Right.
    Mr. Connolly. It just is essential that the person we are 
dealing with, you know, be above reproach.
    Mr. Smedberg. Understand.
    Mr. Connolly. And let me ask you, Mr. Cherrington, while we 
are talking about this, you have been the IG since 2017.
    Mr. Cherrington. Yes, sir.
    Mr. Connolly. Have you seen improvements in WMATA with 
respect to your office and how you interact with management and 
the board?
    Mr. Cherrington. Well, I have always had good interaction 
with board and with Mr. Wiedefeld, so as far as personalities 
and getting along, that has never been a problem. So to say has 
that improved? I would say it still remains very good.
    As far as practice and procedures, policies, of things that 
we have audited or investigations we have had that followed up 
on, to my understanding the last 2 1/2 years Metro management 
has accepted all of the recommendations that we have made. 
There have been a lot of policy changes based on that. There 
has been a lot of positive change. So short answer, yes, Mr. 
Chairman.
    Mr. Connolly. Okay. You have adequate resources with which 
to conduct your work.
    Mr. Cherrington. Yes, sir. We do now, because of the 
relationship we have, but that needs to be institutionalized, 
in Federal law or otherwise. It needs to be sound in Federal 
law so that my successors and so the future--so if there a 
change of board management, change of Metro management, they 
can't make policy changes.
    Mr. Connolly. Well, as you know, in the MAIA bill that the 
regional delegation unanimously supports, we have designed $10 
million of the $50 operating subsidy for your office, to 
address the very point you make.
    Mr. Cherrington. Yes, sir, and we appreciate the support.
    Mr. Connolly. Okay. Mr. Mayer, a final line of questioning 
on safety, for the record again. First of all, do you agree 
that if people are discovered to have falsified safety records, 
whose job it is to inspect safety, that they are a--they are 
disqualified from employment at Metro, or ought to be?
    Mr. Mayer. I don't want to give a weasel-y answer because 
obviously Metro has got to be responsible for its own H.R. 
responsibilities. If employees are properly trained and they 
know how to do the job and they are willfully disregarding it, 
then there has to be accountability.
    Mr. Connolly. Hm. It sounds bureaucratic. I mean, 
accountability--like what?
    Mr. Mayer. Oh, I would agree with it.
    Mr. Connolly. I mean, we have had deaths on the system.
    Mr. Mayer. If someone is properly trained and willfully 
disregards procedures and it leads to something like that, 
absolutely, they should not be working at Metro.
    Mr. Connolly. So you would back Mr. Wiedefeld in seeking 
disciplinary action against such individuals.
    Mr. Mayer. Yes, I would.
    Mr. Connolly. Without prejudging.
    Mr. Mayer. Yes.
    Mr. Connolly. But, I mean, if it is clear--we have the 
evidence. Mr. Wiedefeld had the intestinal fortitude to try----
    Mr. Mayer. Oh, absolutely.
    Mr. Connolly [continuing]. to deal with that so that we 
weed that out and we set a standard that says you can't do 
that.
    Mr. Mayer. Absolutely. I don't mean to appear----
    Mr. Connolly. Okay.
    Mr. Mayer [continuing]. I----
    Mr. Connolly. Because I think the public needs that 
reassurance.
    Mr. Mayer. Absolutely. And I support him on that. Generally 
speaking, discipline is not something that is in the lane of 
safety.
    Mr. Connolly. Okay. Did you look at the October 7 incident, 
in which two Metro trains collided?
    Mr. Mayer. Yes. My staff and I were onsite during that 
Monday morning. We have--are working with Metro. The 
investigation is ongoing. The day after the accident I called 
for an engineering summit to be held. That was held Thursday of 
last week. I am very appreciative to the number of WMATA staff 
that came. We had a very candid discussion about some of the 
CAPs that exist, some of the engineering approaches, and we are 
working now to digest that information. And, of course, Metro 
is investigating the accident under our overall oversight.
    Mr. Connolly. There were printed reports that the cause of 
the accident was human, that it wasn't due to some electrical 
failure or, you know, signal failure. It actually was a human 
failure. Can you confirm that?
    Mr. Mayer. Well, you know, human factors are a factor in 
most every accident, at some level. The trains in the Metro 
system are currently in manual operation, so if a train is 
going to move it must be under the operator's command. So, yes, 
I don't want to get into trying to blame a particular operator 
or a particular action, because I am interested in systemic 
fixes and systemic solutions.
    But, yes, human factors are very active in the 
investigation.
    Mr. Connolly. Well, let me just say, Dr. Mayer, in a system 
that is trying to recover ridership, and that has lost a lot of 
ridership because of loss of confidence, in safety, No. 1, 
reliability, No. 2, I just think--I would commend to you, 
speaking a little bit more forthrightly and directly, I don't 
know that the public would understand your last answer. But the 
public needs to, and we need to either tell them, ``You know, 
we can't give you a good answer,'' or give them a reassuring 
answer. But it has got to be forthright so that people know the 
system is or is not safe.
    I don't want to think I take my life in my hands every time 
I take a Metro ride, and we have got some--we have had deaths 
in the system.
    Mr. Mayer. Absolutely.
    Mr. Connolly. This is not a theoretical question.
    Mr. Mayer. We share your value of transparency. We will be 
transparent.
    Mr. Connolly. Well, I would urge you to speak 
transparently.
    Mr. Mayer. I will do my very best, sir.
    Mr. Connolly. Thank you, because I think the public is 
counting on you, and we are counting on you.
    Mr. Mayer. Your words mean a great deal and we will take 
them to heart.
    Mr. Connolly. Okay. I see my good friend from Maryland, Mr. 
Trone, has arrived, and the chair now recognizes Mr. Trone for 
five minutes of questioning.
    Mr. Trone. Thank you, Mr. Chairman. Good afternoon. One 
hundred seventy-four million riders. Wow. I mean, it is local 
riders but it is also tourists. I mean, you guys are the face 
of our Nation's Capital, and it is really important that it is 
not just the stations and the rail cars, but the real face is 
the team, the people--the workers, the management, et cetera.
    So there have been a number of issues regarding that face, 
that faces our customer-facing area. So, Mr. Wiedefeld, what 
steps have you done to improve service? Let's talk about that a 
while.
    Mr. Wiedefeld. In terms of service or----
    Mr. Trone. Customer service.
    Mr. Wiedefeld [continuing]. customer service. Yes. First 
and foremost, I think we have to recognize what our employees--
they do a tremendous job, the vast majority of them, on 
customer service, to the point where they literally save 
people's lives. They put themselves in danger to do that. That 
happens on a regular basis, and just recently it happened 
several times in the last month, or the last two months. So I 
have to commend our workers, because they do that every day.
    When we don't have workers that do not perform to that we 
basically direct them, this is the way--what is expected of 
you, and if not then we go down a path that they do not belong 
with us. They have chosen not to bind to our culture of 
customer service and that this probably isn't the place for 
them. So we continue to do that.
    We are working very closely--as you can imagine, we have 
very work force, from a representative work force. We are 
working very closely with leadership in the union area to work 
through all types of issues. One of the biggest issues that our 
bus operators have is just some of the issues they deal with, 
day to day, in some of the communities they serve, how they are 
treated, and get them to basically not take the bait. Right? 
They are not there to do that. They are there to serve the 
community. And things of that sort. We reach out to the 
community itself, to have them respect our operators, 
particular the face-to-face instances.
    So there are a number of things like that. But, you know, 
they are professionals, and we want to treat them like 
professionals, but then we expect them to act like 
professionals and perform like professionals. So it is a two-
way street to get better customer service.
    Mr. Trone. So how many total workers do you have in the 
system, full-time equivalents?
    Mr. Wiedefeld. 12,000.
    Mr. Trone. And in the last 12 months, how many of those 
were terminated for customer service issues?
    Mr. Wiedefeld. I don't know specifically for customer 
service, but we have certain rules that they break them. It 
averages around 3 percent, in that range, if I recall.
    Mr. Trone. Three percent for termination, for----
    Mr. Wiedefeld. For termination, on an ongoing basis, for 
things that occur.
    Mr. Trone. How many different mistakes do they have to make 
before they are actually terminated?
    Mr. Wiedefeld. It varies. There are certain things we call 
cardinal rules. If you break them, that is it. You are done. So 
we have a series of those. But we obviously have a process we 
have to go through, but if you break a cardinal rule that is 
something that immediately occurs.
    Mr. Trone. So that speaks to the standards. What are some 
of the other--what are some of the key standards that you have, 
these cardinal rules?
    Mr. Wiedefeld. You cannot lie to us, for instance, when we 
have an investigation. We need to know the truth right away, 
and that is one of our major cardinal rules. Obviously you 
can't use a phone. You can't obviously come in--you know, you 
can't do certain things, obviously, with alcohol. All those 
types of things are immediate things. There are certain things 
that you just cannot do that if they are--they are primarily 
safety related. Anything that puts yourself and/or other 
employees or customers at danger is immediate.
    Mr. Trone. Is there anything that is purely service 
related, how we talk and face our customer and deal with our 
customer----
    Mr. Wiedefeld. Not an immediate----
    Mr. Trone [continuing]. with respect and dignity?
    Mr. Wiedefeld. Not an immediate firing for something like 
that, but basically you do, in effect, collect points for 
something like that, and that would be something we would deal 
with as well.
    Mr. Trone. Okay. GAO reported, in September 2018, that 
WMATA implemented two employee performance management systems, 
but these systems lack key elements of effectively design 
systems, and that WMATA has failed to implement comprehensive 
policies and procedures for its performance management system. 
And the example was that GAO reviewed 50 performance 
evaluations, and 20 percent--that is a pretty big number--20 
percent included scoring errors where the rating was completely 
inconsistent with the supporting review.
    GAO reported three recommendations and all of them are 
still open. Where are we at there?
    Mr. Wiedefeld. We have automated that entire process. We 
basically put in that any salary increase that someone would be 
eligible for is dependent upon basically submitting that 
performance plan, that basically is monitored on a regular 
basis throughout the year, and then that becomes, basically, 
the benchmark upon any salary adjustment that you might have. 
So it was both automated and made real in terms of salary 
adjustments.
    Mr. Trone. What I worry about is that ensuring that the 
performance management actually is not just simply a check-the-
box type thing, and that the Metrorail employees get legitimate 
reviews and document success and deficiencies. You know, I come 
out of the business world and I had like 7,000 team member in 
my company. What is the most important day for any team member 
is the day of your annual review. And you should be celebrated 
to talk about the things that are excellent, that you have 
done, and lots of atta-boys, but we also have to be just 
honest, not critical but honest about where we had some--we 
could do better. But a check-the-box destroys the entire 
system. And then there is no possibility for the organization 
to rise in customer service.
    Mr. Wiedefeld. I agree, and that is why we changed it, the 
things that we put in place.
    One of the things we have done is historically, in a lot of 
government jobs, everyone gets the same sort of raise, the 
reality is. We changed that. Basically, we give each manager a 
pool of dollars, and basically that pool then is--so if you 
have someone who is here, here, and here, you have to choose. 
So if someone needs work, they need to get to work, their 
salary is going to reflect that, their adjustment. If someone 
is in the middle, that is fine. But to get at a higher end you 
have to show that.
    So again, it is just not a blanket, everyone gets two 
percent or something like that. We have changed that way of 
thinking, again, to drive home what is it that your goals are 
for the year and are you achieving them? That is going to drive 
what you get, in terms of a salary adjustment.
    Mr. Trone. So what is the average salary adjustment, 
percentage-wise, with that system?
    Mr. Connolly. You may answer the question, but the 
gentleman's time has expired.
    Mr. Wiedefeld. About 2 1/2 percent, in that range.
    Mr. Trone. Thank you.
    Mr. Connolly. Would the gentleman yield for a question?
    Mr. Trone. Yes.
    Mr. Connolly. You come from a business background.
    Mr. Trone. Yes, sir.
    Mr. Connolly. How important is customer service to the 
success of the enterprise?
    Mr. Trone. It is everything. I mean, we measure our 
customer service in my company. We have 200-and-some stores. We 
literally measure it every single month, and that helps drive 
the team members' bonus systems. So the store management team, 
it is not just EBITDA but it is how we take care of the 
customer. That is how we live and die. You know, price--anybody 
can compete on price. You can compete on selection. But it is 
customer service that is the key.
    Mr. Connolly. In retail business, my understand is 
something like this, that the average happy customer tells six 
people about that experience, positive experience, but the 
average unhappy customer tells like 20.
    Mr. Trone. They tell everybody.
    Mr. Connolly. Yes.
    Mr. Trone. Sure.
    Mr. Connolly. So, obviously, the name of the game is to 
have a lot more happy customers, because it is harder to 
buildup that goodwill, and the more you have unhappy customers, 
the more by word-of-mouth, the enterprise suffers, people don't 
want to use it.
    Mr. Trone. We use something called an NPS, a Net Promoter 
Score, and it is how much your customer is willing to promote 
your business. So we will rank ourselves with, you know, Trader 
Joe's, and Walmart will be at the bottom. And someone like 
Trader Joe's will be at the top.
    Mr. Connolly. So I couldn't agree more with my friend, and 
I know Mr. Wiedefeld knows, I have talked about it, and I have 
talked about what had crept up as becoming a culture of 
mediocrity, and with respect to customer services, sometimes 
indifference. And not everybody. Some people are very dedicated 
to their mission. They wake up every morning and whistle while 
they work. But not enough of them.
    I think it has a lot to do with the enterprise. We are 
dealing with fundamentals like safety, but if you want to bring 
back ridership and rebuild confidence, I have got to know that 
I am dealing with a friendly work force that cares about me as 
a passenger, and, by the way, is trained in safety procedures 
so that when something goes wrong, the conductor or somebody on 
that train knows what to do, besides telling people, ``I don't 
know what to do.'' And all too often, in safety incidents, 
frankly, the feedback we get from citizens or riders is that 
some of the Metro personnel were of no help at all, and we 
can't have that either. They have got to see themselves as a 
resource in the event of something emergent.
    So I thank my friend for bringing it up, because I think we 
have got to focus on that as something that is key to 
revitalizing and optimizing the comeback we are seeing. There 
are a lot of hopeful signs, not least because, you know, 
management has paid attention. But there is a long way to go in 
the area of customer service. I thank my friend for pointing it 
out.
    With that I--oh, I ask unanimous consent that Mr. Hoyer's, 
the Majority Leader, full statement be entered into the hearing 
record. Without objection, so ordered.
    Mr. Connolly. I want to thank our witnesses for their time 
today. Without objection, all members will have five 
legislative days within which to submit additional written 
questions, if they choose, for the witnesses, to go through the 
chair, which will be forwarded to the witnesses for their 
response. And I would ask all of our witnesses in the event 
that you get such questions that you respond as expeditiously 
as you possibly can.
    With that we are--what?
    Without objection, Mr. Trone has been recognized to 
participate in this hearing, after the fact. So ordered.
    We are adjourned.
    [Whereupon, at 3:42 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
